           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      THE SOCIAL SECURITY
  ADMINISTRATION’S PROCEDURES
        FOR ADDRESSING
 EMPLOYEE-RELATED ALLEGATIONS
          IN REGION II

    June 2004   A-02-04-14007




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                 SOCIAL SECURITY

MEMORANDUM

Date:   June 24, 2004                                                           Refer To:

To:     Bea Disman
        Regional Commissioner
         New York

From:   Assistant Inspector General
          for Audit

Subject: The Social Security Administration’s Procedures for Addressing Employee-
        Related Allegations in Region II (A-02-04-14007)


        OBJECTIVE
        Our objectives were to evaluate the adequacy of the Social Security
        Administration’s (SSA) policies and procedures in Region II for addressing
        employee-related allegations, determine how well Region II complied with these
        policies and procedures, and determine whether Region II referred all employee-
        related allegations that should have been referred to the Office of the Inspector
        General (OIG).

        BACKGROUND
        Region II receives various types of allegations related to its programs, employee
        conduct and the misuse of Social Security numbers (SSN). The allegations can
        originate from SSA employees, the public, congressional inquiries, internal
        security reviews, or the OIG, and can be initially received by different offices
        within the Office of the Regional Commissioner (ORC).

        Some examples of employee-related allegations include standards of conduct
        violations, ethics violations, potential criminal violations, the theft of Government
        property, and allegations of rude, discourteous, or poor service where a specific
        employee is named. Allegations concerning SSA employees are significant
        because of the potential losses to SSA’s programs and the corresponding
        negative public impact.
Page 2 – Bea Disman

In determining the validity of allegations, Region II is required to conduct sufficient
development to support or remove suspicion that criminal violations may have been
committed.1 SSA’s policy states,

          Prior to referral to the Office of the Inspector General, Office of Investigations
          Field Division, each potential violation and allegation must be developed by
          the field office, processing center, or other SSA office to the point where
          enough evidence has been secured to either remove suspicion or
          substantiate the violation.2

In Region II, the ORC, Center for Security and Integrity (CSI), Center for Human
Resources (CHR), and Office of Public Affairs (OPA) all receive and review
employee conduct and program-related allegations. Each of these components has
separate processes and procedures for reviewing the allegations it receives. See
Appendix C for a description of the procedures used by each component.

RESULTS OF REVIEW
The New York Regional Office (NYRO) had policies and procedures in place to address
employee-related allegations and generally complied with them. We identified some
cases in need of further action and opportunities to improve the procedures used to
address employee-related allegations.

      •   The NYRO did not refer two potential criminal cases to the OIG for investigation.

      •   There was inadequate case documentation to support whether allegations were
          properly developed for 26 cases.

      •   The CSI, CHR, and OPA did not retain complete control logs used to document
          the receipt, review, and clearance of employee-related allegations.

      •   There was inadequate documentation to support that the 90-day requirement for
          clearing OIG Hotline referrals was met for 15 cases.

      •   There was a lack of consistency in disciplinary actions for absence without official
          leave (AWOL) cases.

REFERRALS TO THE OFFICE OF THE INSPECTOR GENERAL

SSA policy states that allegations backed by evidence and information, either directly or
circumstantially, that establishes that a potential violation may have been committed are

1
    Program Operations Manual System (POMS), GN 04110.010 A.
2
    POMS, GN 04110.010 B.
Page 3 – Bea Disman

to be forwarded to the OIG.3 Allegations should be forwarded to the OIG even if
additional information is being developed. In our review, 23 employee-related cases
received and processed in Region II were potential violations and should have been
referred; 21 were referred. We identified two CSI cases that should have been
forwarded to the OIG, but were not.

      •   An SSA employee obtained a Detailed Earnings Query (DEQY) and a Numident
          Query on another SSA employee. These queries were not in any way related to
          the employee’s job duties. The employee initially denied performing these
          queries and then later admitted it. Although the employee was suspended for
          2 days, the case was not referred to the OIG. The DEQY involved accessing
          confidential tax information that was unrelated to this employee’s job duties.
          Reviewing tax information is considered a potential criminal violation.4

      •   An SSA employee requested several Alphident Queries to obtain the SSN of an
          individual and requested DEQYs on a friend. The employee was suspended for
          7 days, but the case was not referred to the OIG. Similar to the case discussed
          above, the DEQYs involved accessing confidential tax information that was
          unrelated to this employee’s job duties and reviewing tax information is
          considered a potential criminal violation.

RETENTION OF CASE DOCUMENTATION

In determining the validity of allegations, SSA is required to conduct sufficient
development to support or remove suspicion that criminal violations may have been
committed.5 Twenty-six of the 189 allegations we reviewed lacked adequate
documentation to come to a conclusion that Region II had taken sufficient corrective
action. For 4 of these allegations, we were unable to locate any documentation. These
4 cases were OIG Hotline referrals to the ORC.

For the remaining 22 cases, the NYRO provided some documentation, but it was
insufficient to determine if the cases were fully developed. For example, one ORC case
only had an internal control log cover sheet in the case file but no other evidence of any
investigation or the required response to the Allegation Management Division (AMD).
While the ORC later provided us with a written statement from the Field Office Manager
about the investigation and sending a letter to the complainant, it was unable to provide
us with a copy of this letter or any other documentation of its investigation. In a CSI
case, we found that the file did not contain a description of the evidence, if any, that led
the CSI to conclude that there had not been systems misuse or other offenses by the
employee. The file only contained a brief note stating "…management does not think it


3
    POMS, GN 04110.010 C.2.
4
    Public Law No. 105-35, Section 7213a.
5
    POMS, GN 04110.010 A.
Page 4 – Bea Disman

materialized into anything." The file's very brief notes of telephone conversations
between the CSI and other SSA staff were not sufficient for us to conclude whether CSI
took the appropriate action in this case.

Seven of the 22 cases were allegations of possible criminal violations. Given the lack of
evidence, we were unable to conclude whether the allegations were substantiated or
proven false. Accordingly, we could not conclude if these cases should have been
referred to the OIG for further investigation.

RETENTION OF CONTROL LOGS

Federal internal control standards call for policies, procedures, techniques and
mechanisms to help enforce management’s directives, address risks and to record,
properly classify and account for transactions and events.6 Additionally, SSA’s policy
requires that control logs be retained for 2 years.7 We found that the ORC maintained
an internal control log, which tracked employee-related allegations. We could not
identify complete logs for cases processed by the CSI, CHR or OPA.

Center for Security and Integrity

The CSI did not have a process, either manually or electronically, for tracking all of its
employee-related allegations. As a result, we could not independently verify that the
total number of CSI cases of employee-related allegations that we reviewed
represented the total population of all CSI cases during our audit period. The CSI had a
database for cases that have been referred to the OIG due to potential criminal
misconduct. The CSI did not log or track other types of employee-related allegations.

Center for Human Resources

The CHR did not maintain a control log system to track the receipt, review, and results
for all the employee-related allegations it investigated which resulted in an adverse
action. The CHR’s Personnel Policy Team maintained an informal spreadsheet of
current cases that were being worked, but these cases were purged from the
spreadsheet as they were concluded and closed.

Office of Pubic Affairs

The OPA’s case files of allegations were kept on a rolling basis for 1 year and filed by
month and claimant’s last name. Files were not kept for any longer than 1 year. The
OPA did not maintain any log or database to track the complaints received, the nature
of the complaint, or the outcome.


6
 Standards for Internal Control in the Federal Government, General Accounting Office, GAO/AIMD-00-
21-3-1 p. 11, 12 and 15.
7
    Operational and Administrative Records Schedules, CMS-02.01.00, Control Logs, 09-01-92.
Page 5 – Bea Disman

COMPLIANCE WITH THE 90-DAY TIME REQUIREMENT TO COMPLETE HOTLINE
REFERRALS

The OIG requires the SSA component receiving an allegation referral from the OIG
Hotline to respond with the results of its findings within 90 days. For 15 of the 52 cases
received by the ORC from the Hotline, the Region did not respond to AMD staff within
the required 90-day period. Of these 15 cases, 2 were subsequently cleared. However,
13 cases still had not been cleared as of February 2004. These cases had been open
for an average of 649 days, ranging from a low of 459 to a high of 870 days. In 7 of the
13 open cases, the ORC had not responded to the AMD, but it provided documentation
demonstrating that it took action to sufficiently resolve the cases. Two additional cases
had some evidence of corrective action, but the documentation was insufficient. Four
cases had no evidence of any corrective action.

CONSISTENCY OF DISCIPLINARY ACTION

The Douglas Factors establish a set of standards for disciplinary and adverse action
cases. The Douglas Factors were developed by the U.S. Merit Systems Protection
Board as a result of a court case, Douglas v. Veterans Administration.8 According to
New York Regional Office management guidance for disciplinary and adverse actions,
each of the Douglas Factors, if applicable, is to be considered in selecting an
appropriate penalty for an offense. The Douglas Factors recommend that penalties
should be consistent with those imposed on other employees for the same or similar
offenses and consistent with the applicable agency table of penalties.

We found that the NYRO’s decisions were generally administered in a consistent
manner for most types of misconduct cases. However, we found a lack of consistency
with AWOL cases in the number of AWOL occurrences and amount of AWOL hours that
were permitted to accumulate prior to being referred to the CHR for disciplinary action.
We found that some managers made referrals to the CHR for disciplinary action after a
few occurrences of AWOL, while other managers made referrals after numerous AWOL
infractions. There is no established policy on the amount of AWOL that can be
permitted before managers are required to refer it for administrative action.

      •   First suspensions for AWOL violations – There were 5 employees who were
          suspended for the first time for varying AWOL violations. For example, one
          employee had accumulated 12.75 hours of AWOL in 3 occurrences over a 4-day
          period and was referred to CHR for a first suspension for AWOL offenses, while
          another employee accumulated 167.25 hours of AWOL in 33 occurrences over
          an 11-month period before being referred to CHR for a first suspension for
          AWOL.
      •   Third suspensions for AWOL violations – There were 4 employees who received
          their third suspensions for AWOL violations. The amount of AWOL that

8
    Douglas v. Veterans Administration, 5 M.S.P.R. 280 (1981), p. 38.
Page 6 – Bea Disman

      accumulated prior to referral to the CHR for disciplinary action varied greatly.
      One employee was referred to the CHR for the third suspension after
      accumulating 31.5 hours of AWOL in 45 occurrences over a 7-month period.
      Another employee was allowed to accumulate 159.75 hours in 22 occurrences
      over a 3-month period before being referred to the CHR for a third AWOL
      suspension, while another accumulated 190.5 hours of AWOL in 79 occurrences
      over a 41-day period. The fourth employee accumulated 67.75 hours of AWOL
      in 5 occurrences over a 5-month period.

CONCLUSIONS AND RECOMMENDATIONS
While SSA’s policies and procedures in Region II for addressing employee-related
allegations were generally adequate, further action is needed for some cases and there
are opportunities to improve the policies and procedures related to these allegations.

Accordingly, we recommend that the NYRO:

1. Ensure allegations with potential employee criminal violations are referred to the
   OIG.
2. Maintain evidence (that is, case development, documentation, and control logs) that
   supports the clearance of employee-related allegations.
3. Clear any OIG referrals that are still open beyond the 90-day requirement and report
   back findings to the OIG.
4. Provide guidance to regional staff on referring AWOL cases for disciplinary action to
   ensure consistency in the handling of these cases.

AGENCY COMMENTS
The NYRO disagreed with our first recommendation. In response to the first
recommendation on the referral of cases to the OIG, it stated that it was not required to
refer the two DEQY cases cited in the report since there wasn’t a national SSA policy in
place at the time the cases were processed directing such cases to be referred to the
OIG. Additionally, the NYRO stated that to refer all such DEQY cases to the OIG could
prolong the timeframe needed to address them through administrative action, which
could be problematic if the administrative action were contested in arbitration.

The NYRO partially agreed with our second recommendation. It will establish control
logs and maintain evidence on all employee allegations, except for CHR cases related
to a disciplinary action that was not imposed. It stated that this position is consistent
with the Agency’s Personnel Policy Manual, section 293-1, Appendix C, which provides
for the removal of such material from the In Process Working File. The In Process
Working File is a temporary file used to house an administrative action while it is being
processed.
Page 7 – Bea Disman

The NYRO agreed with our third and fourth recommendations. In agreeing to our fourth
recommendation, the NYRO stated that there are many factors that managers consider
prior to referring AWOL cases for disciplinary action other than the number of
occurrences and hours of AWOL. It stated that managerial discretion plays a significant
role since each case presents unique circumstances and that the Agency does not have
a table of penalties that prescribes specific disciplinary actions in AWOL cases.

OIG RESPONSE
We appreciate the NYRO’s comments on our report. We are pleased that it fully agreed
with two of our four recommendations and has already begun to take action to address
several identified weaknesses.

While the NYRO disagreed with our first recommendation, the Agency and the OIG
have subsequently agreed to a pilot program related to the referral of systems
violations, such as the unauthorized queries we highlighted in the report. Under the
pilot program, all systems violations will be referred to the OIG. Category two and three
violations, the most serious of violations, will be referred to the OI as they are identified.
Category one violations will be referred for OI review on a quarterly basis. As a result of
this pilot program, all systems violations, including DEQY cases, will be referred to the
OIG.

In regards to the NYRO’s response to our second recommendation, we believe that all
employee-related allegations should be part of an allegation control process that
documents the receipt, development, and disposition of all allegations. The
Agency’s Personnel Policy Manual, section 293-1, Appendix C discusses the removal of
a copy of the proposal and employee’s reply related to disciplinary and adverse actions
that are not imposed. It does not prohibit the tracking of these cases in an allegation
control process.

Concerning our fourth recommendation, we understand that managerial discretion plays
a significant role in AWOL cases, as each case may present unique circumstances.
Granting this point, the circumstances in the cases we reviewed did not explain the
great variation in the number of occurrences and hours of AWOL permitted to
accumulate before they were referred for disciplinary action. We are hopeful that the
NYRO’s training on good leave management practices will improve the processing of
AWOL cases.




                                                  S
                                                  Steven L. Schaeffer
                                    Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Description of the Procedures Used to Address
             Employee-Related Allegations in Region II

APPENDIX D – Flowcharts

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms

AD         Area Director
AMD        Allegation Management Division
AWOL       Absence Without Official Leave
CHR        Center for Human Resources
CIRP       Comprehensive Integrity Review Program
CSI        Center for Security and Integrity
DEQY       Detailed Earnings Query
ESS        Executive Support Staff
IPFT       Integrity and Program Fraud Team
NYRO       New York Regional Office
OI         Office of Investigations
OIG        Office of the Inspector General
OPA        Office of Public Affairs
ORC        Office of the Regional Commissioner
POMS       Program Operations Manual System
RCACS      Regional Commissioners Action Control System
SFPT       Security and Fraud Prevention Team
SSA        Social Security Administration
SSN        Social Security Number
                                                                                    Appendix B

Scope and Methodology
We reviewed employee-related allegation cases in Region II for Fiscal Years (FY) 2001
and 2002. (We did not review cases referred to or processed by the Northeast Program
Service Center in Region II.) These cases included referrals received directly from the
Office of the Inspector General (OIG) Hotline; cases processed by the Center for
Security and Integrity (CSI); cases processed by the Center for Human Resources
(CHR); and cases processed by the Office of Public Affairs (OPA).

We reviewed the following criteria:

    •   Office of Management and Budget Circular A-123, Management Accountability
        and Control.
    •   United States General Accounting Office, Standards for Internal Control in the
        Federal Government.
    •   Office of Personnel Management, Standards of Ethical Conduct for Employees of
        the Executive Branch.
    •   Social Security Administration (SSA), Program Operations Manual System
    •   SSA, Administrative Instructions Manual System.
    •   SSA, Operational and Administrative Records Schedules.
    •   SSA, Annual Personnel Reminders.
    •   SSA, Memorandum on Sanctions for Unauthorized Systems Access Violations.
    •   SSA, Personnel Policy Manual.
    •   SSA, New York Regional Office, Disciplinary Actions and Adverse Actions: A
        Training Guide for Managers and Supervisors.
    •   Additional polices and laws related to the processing of employee-related
        allegations.

Our steps included the following:

    •   We obtained the database of allegations identified as employee-related that were
        processed by the OIG Allegations Management Division (AMD) and referred to
        the New York Office of the Regional Commissioner (ORC) during FYs 2001 and
        2002. The database listed 60 cases. We later confirmed with the AMD that 7 of
        those cases were never referred to the ORC, and 1 other case was referred, but
        it should not have been since it involved an Office of Hearings and Appeals
        employee.1 We reviewed the remaining 52 cases.



1
 Of the 7 cases not referred: 2 were duplicate allegations that were previously referred under different
allegation numbers and were closed by the AMD; 1 was closed by AMD management without referral
because it was determined that no violation occurred; 3 were not referred by AMD to Region II due to
AMD processing error; and 1 case was a Boston Regional Office case that was identified in error as a
New York Region case on the OIG database.
                                                    B-1
      •   We compiled a list of 95 employee-related allegations handled by the CSI from
          review of CSI and CHR case files. We eliminated 30 of the 95 cases that were
          outside the scope of our review because they were either outside of our audit
          period of FY 2001 and FY 2002, detected by the Comprehensive Integrity
          Review Program (CIRP), related to an employee stationed at the Northeast
          Program Service Center, or was part of an open OIG investigation.

      •   We reviewed 232 cases processed by the OPA between January 2002 and
          September 2002. (Cases processed between October 1, 2000 and
          December 31, 2001 had been discarded.) We determined that 20 of the
          232 cases involved employee-related allegations and included those 20 cases in
          our review.

      •   We determined that 45 of the 65 cases processed by the CSI were referred to
          the CHR and 33 of these resulted in adverse actions. We reviewed the CHR’s
          handling of these cases and reviewed an additional 52 adverse actions
          processed by the CHR Employee Relations Staff to identify potential employee-
          related allegations. We did not review any cases identified through CIRP reviews
          or those being investigated and pending with the OIG. We also did not review
          CHR cases that did not result in an adverse action. It is CHR’s policy to destroy
          any documentation for cases that do not result in an adverse action.2

      •   We interviewed officials within the ORC, CSI, CHR, and OPA.

      •   We reviewed ORC, CSI, CHR, and OPA documentation related to allegations
          received from the OIG and other sources.

      •   We compared similar types of employee violations to determine if Region II
          processed cases in a consistent manner.

We performed our review at the SSA regional office in New York, New York from May
2003 through February 2004. The entity reviewed was the Office of the Regional
Commissioner, New York Regional Office. We conducted our review in accordance
with generally accepted government auditing standards.




2
    Social Security Administration, Personnel Policy Manual, Chapter S293-1, Appendix C (General Series).
                                                      B-2
                                                                        Appendix C

Description of the Procedures Used to Address
Employee-Related Allegations in Region II
The Office of the Regional Commissioner (ORC)

The ORC receives employee-related allegations from multiple sources. For example,
the ORC receives allegations from the Office of the Inspector General (OIG) Fraud
Hotline, telephone calls or letters from the public to the Regional Commissioner and
inquiries from congressional offices. The calls and letters to the Regional
Commissioner and the congressional inquiries directly received by the ORC are referred
to the Office of Public Affairs (OPA) for processing. The ORC directly manages the
employee-related allegations that originate with the OIG Fraud Hotline, a toll-free phone
number and e-mail address established to allow the public to forward information on
suspected cases of fraud, waste, and abuse within the Social Security Administration
(SSA).

The staff of the Hotline, which is operated by the Office of Investigation’s (OI) Allegation
Management Division (AMD), forwards allegations involving potential employee-related
misconduct, fraud, abuse, and service-related complaints to ORC. Once received,
allegations are reviewed by the Regional Commissioner and the Executive Assistant to
the Commissioner and then passed to an ORC staff member for input into the Regional
Commissioners Action Control System (RCACS), a computerized allegation tracking
system. The RCACS assigns a systems-generated control number to each allegation.
Once entered, allegations are forwarded to the appropriate Area Director (AD) for
further development.

Each allegation forwarded to an AD is accompanied with instructions to prepare a fact
sheet of the results of the related investigation and a draft response letter to the
complainant. The Area Director reviews the allegation and forwards it to the appropriate
field office manager that has direct supervisory responsibilities for the employee in
question. The manager investigates the allegation, assembles any documents deemed
necessary and prepares a summary of the main facts of the case. The AD forwards the
completed Fact Sheet and any other relevant documents back to the ORC. The New
York Region sends its response to the allegation to AMD via e-mail. Hard-copies of
case file documents are maintained at the Regional Office.

We reviewed 52 employee-related allegations referred by the Hotline to the ORC during
the period of our review. Almost all of the allegations received by the ORC that we
reviewed were service-related complaints; none involved allegations of criminal
misconduct.




                                            C-1
Center for Security and Integrity - Security and Fraud Prevention Team (CSI)1

The CSI is primarily responsible for reviewing those employee-related allegations
related to internal security. The CSI reviews all allegations that appear to involve fraud
or employee misconduct related to systems misuse that may result in an adverse
action. It is responsible for supporting field office managers in developing potential
fraud issues by using computer system analysis and providing other technical support.
The CSI receives its cases through internal systems reviews, referrals from Field
Offices or Teleservice Center managers, and requests from the Center for Human
Resources (CHR) and OI for assistance.

The CSI primarily investigates systems sanctions cases that involve activities, such as
unauthorized access to SSA systems, unusual queries or other forms of systems
misuse that would be grounds for disciplinary action. Depending on the evidence
collected, CSI determines if the case should be closed or referred to OI for further
investigation or to CHR for possible administrative action. Most of the systems
sanctions cases are not referred to OI for further investigation since they are non-
criminal in nature. During the period of our review, the CSI processed 65 employee-
related allegations.2

Center for Human Resources

The CHR reviews cases of employee misconduct allegations that are being considered
for adverse actions. (Adverse actions are disciplinary actions that may result in
suspension, loss of pay, or removal from Federal employment.) The types of issues
reviewed by the CHR can involve leave abuse, credit card abuse, performance issues,
inappropriate conduct to SSA customers or other SSA employees, and unauthorized
use of SSA systems. If a case involves any potential unauthorized use of systems or
criminal activity, it is referred to the CSI. In these cases, the CHR determines whether
administrative action is necessary only after the CSI and, if necessary OI, have
concluded their investigations. If criminal charges are filed against an employee that
could result in a prison sentence, CHR may take administrative action to indefinitely
suspend the employee.

The CHR’s Personnel Policy Team plays a primary role in helping to prepare guidance
and recommendations for managers for disciplinary actions in cases of employee
misconduct. One of the unit’s functions is to ensure that disciplinary penalties are

1
  The CSI in Region II is comprised of two components: the Security and Fraud Prevention Team
(SFPT), which performs security reviews of all employees in the New York Region with the exception of
the Northeast Program Service Center; and the Integrity and Program Fraud Team (IPFT), which
performs security reviews of employees at the Northeast Payment Services Center. This audit only
reviewed the SFPT component; the IPFT was excluded from the scope of this audit. All references to CSI
in this report refer only to the SFPT component.
2
 This number was comprised of the cases that we actually reviewed. It did not include cases that were
excluded from our audit because they were either identified through CIRP (Comprehensive Integrity
Review Program) reviews or were still being investigated and pending with OI. CIRP reviews are an
automated SSA process for monitoring higher-risk and potentially improper computer transactions on
SSA’s systems.
                                                   C-2
applied consistently throughout Region II. It also assists managers in preparing the
Proposal Letter and Decision Letter that are issued to employees when adverse actions
are being considered. During the period of our review, the CHR processed
52 employee-related allegations. It also assisted in the processing of 45 of the
65 cases that originated in the CSI. The majority of the CHR cases that we reviewed
involved unauthorized systems access violations and standards of conduct issues.

Office of Public Affairs

The OPA receives a broad variety of inquiries. Very few involve an allegation identifying
a specific employee. The majority of inquiries are service-related, such as complaints
about the time it takes for a decision on an appeal or about a Disability Determination
Services determination. The unit receives complaints or inquiries from various sources,
including the general public, congressional representatives, or referrals from the
Regional Commissioner or from SSA Headquarters. The OPA responds to each
complaint or inquiry with an investigation and a response letter to the complainant.
Between January 2002 and September 2002, the OPA processed 232 cases. We
determined that 20 of these were employee-related allegations, most involving poor
service or rude or inappropriate behavior by an SSA employee.




                                           C-3
                   Appendix D

Flowcharts




             D-1
D-2
                  Appendix E
Agency Comments
                                  SOCIAL SECURITY

MEMORANDUM



Date:       May 28, 2004                                                             Refer To:




To:         Steven L. Schaeffer
            Assistant Inspector General
            for Audit

From:       Regional Commissioner
            New York

Subject:    The Social Security Administration’s Procedures for Addressing Employee-Related
            Allegations in Region II (A-02-04-14007) -- REPLY


            We reviewed the draft audit report on the above subject and strongly disagree with
            some of the findings throughout the report. Our arguments and comments regarding
            the Conclusions and Recommendations follow.

           1. Ensure allegations with potential employee criminal violations are referred to the
           OIG.

           We believe the Region’s current practices do ensure that potential employee criminal
           violations are referred to the Office of the Inspector General, Office of Investigations
           (OIG-OI). In addressing this issue, the report states that two cases, both involving
           employees who queried earnings records (DEQY) improperly and who were disciplined
           for their offenses, should have been referred to OIG-OI for investigation. The report
           maintains that the employees’ unauthorized queries of records containing federal tax
           information were potential violations of federal law and SSA policy required that these
           cases should have been forwarded to OIG-OI.

           We disagree with OIG’s interpretation of SSA policy as it applied to these specific cases
           at the time our administrative action was taken. In summarizing these cases, the report
           infers that a clear policy concerning unauthorized access to federal tax information (FTI)

                                                 E-1
was in place at the time these cases were discovered and investigated. In fact, subsequent
to the processing of these cases, on August 14, 2002, the Office of Systems Security
Operations Management issued a Systems Security Bulletin entitled Handling and Use of
Federal Tax Information, stating, “The SSA Chief Security Officer… [has] undertaken
the task of making the agency aware of the IRS requirements regarding the use of FTI.”
SSA employees were advised that “it is unlawful to disclose or browse FTI.” Prior to the
issuance of this bulletin, the policy in SSA was not as clearly enunciated as the audit
report suggests.

The report also does not address the probable disposition when cases such as these are
referred to OIG. When employees have queried earnings records of friends, co-workers,
celebrities, etc., improperly, but without disclosing the information to a third party and
without substantial benefit to the employee and/or an accomplice, it is extremely unlikely
that OIG-OI will invest resources in an investigation given the prosecutorial guidelines
applied by the U.S. Attorneys’ Offices. The limited acceptance of referrals by OIG-OI
and the U.S. Attorneys is reflective of SSA’s current policy that an inappropriate DEQY
query does not routinely result in a referral to OIG-OI.

Requiring referral to OIG every time an employee inputs at least one unauthorized
DEQY, as the draft suggests, would result in delaying the administrative action process
until the case is inevitably declined for investigation and returned to the Regional Office.
Protracting the timeframe in this way can be problematic if the administrative action is
contested in arbitration.

Given the facts pertinent to the cases cited, we strongly dispute any inference that
criminal charges could have been sustained in either case. We assert that there is no SSA
policy requiring every inappropriate DEQY to be referred to OIG-OI.

2. Maintain evidence (that is, case development, documentation, and control logs) that
supports the clearance of employee-related allegations.

Two references have been offered in support of the requirement for control logs (see
footnotes 6 and 7 on page 4 of the draft report). The first is GAO’s Standards for
Internal Control in the Federal Government. Although we agree that internal controls in
SSA must meet these standards, the cited document is very general in terminology and
does not represent detailed guidance as to the specific procedures agencies must employ
to do so.

Regarding the Retention of Case Documentation, the first paragraph on page 4 refers to a
case in which CSI documentation is insufficient. We disagree with that assessment. The
file documents a number of telephone conversations in which a manager consulted an
experienced member of the CSI staff. Based on the manager’s concerns, audit trail data
appropriate to the situation were obtained and provided for the manager’s analysis.


                                       E-2
Subsequently, the manager and CSI specialist again discussed the case. It was decided
that the data obtained did not support a finding of fraud or abuse and precluded the need
for further investigation. Although OIG opines a statement in file is “not sufficient”, the
material in file collectively indicates a judgment was exercised that further analysis of
this case would not be productive.

Subsequent to the audit, we reviewed our internal control procedures and are now
establishing control logs and maintaining evidence on all employee allegations,
consistent with the recommendation above. The only exception is that the Human
Resources Center will not maintain material related to a disciplinary action that was not
imposed. This is consistent with the Personnel Policy Manual, 293-1, Appendix C which
provides for the removal of such material from the In Process Working File (The In
Process Working File is a temporary file used to house an administrative action while it is
being processed.)

3. Clear any OIG referrals that are still open beyond the 90-day requirement and report
back findings to OIG.

We are working on resolving the open cases and will report our findings to OIG.

4. Provide guidance to regional staff on referring AWOL cases for disciplinary action to
ensure consistency in the handling of these cases.

In your discussion of AWOL (p.5), you note a lack of consistency in the referrals by
managers (i.e., number of occurrences and hours). Although we recognize the
importance of consistency of penalties in disciplinary actions, AWOL is the one area
where managerial discretion plays a significant role as each case presents unique
circumstances and there is no table of penalties. Managers seek guidance from the
Disciplinary Actions and Adverse Actions guide, Personnel Policy Manual Chapter
S630-1, Article 31 of the National Agreement and the Personnel Policy Team.

As you state, there is no established policy that requires managers to refer AWOL cases
for administrative action when a specified amount of AWOL is reached. The cases you
cite range from AWOL for no leave available, tardiness, chronic illness or failure to
follow rules to episodic occurrences. Managers used their discretion to assess each
situation before deciding to impose discipline. Many factors were considered - the reason
for the absence, the employee’s personal situation and efforts to improve, time between
actions, time between occurrences of AWOL, length of service, etc.

Nevertheless, the Region has been proactive in training management personnel on good
leave management practices. This topic, including AWOL situations, is covered in the
Nuts and Bolts class that is required training for all new Supervisors and Management
Support Specialists. In 2002, a cadre of regional experts began conducting Managerial
Training throughout the Region. Leave management is one of the topics. Area

                                        E-3
Directors, Managers, Supervisors and Management Support Specialists attend the
training, regardless of how long they have been in their positions. The goal of this
training is to review SSA policies, share information and experiences, and to provide the
Region’s position in given situations. In July 2004, New Mid-Level Managers Training
will begin. This course has been designed for new mid-level managers on a wide range of
topics relevant to their new roles, and it includes leave management.

All of these training efforts are ongoing for regional management staff. In addition, when
apprised of specific AWOL situations, the Personnel Policy Team continues to provide
guidance to individual managers consistent with the tenets of progressive discipline.

We thank you for the opportunity to present our views on your Conclusions and
Recommendations. If you have any questions about this reply, please call Bernie Bowles,
Executive Officer, at 212-264-4007.


                                            /s/
                              Beatrice M. Disman




                                       E-4
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Office of Audit, (212) 264-5295

Acknowledgments

In addition to those named above:

   Jeffrey Shapiro, Program Analyst, Office of Audit

   Christine Hauss, Program Analyst, Office of Audit

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-02-04-14007.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations,
  House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S.
Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and
Human Services, Education and Related Agencies, Committee on Appropriations,
U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                   Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                              Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
